                                                                   EMPLOYMENT AND TRAINING

U.S. Department of Labor                                           ADMINISTRATION


                     Office of Inspector General—Office of Audit




                                                                   THE DISTRICT OF COLUMBIA'S DEPARTMENT
                                                                   OF EMPLOYMENT SERVICES HAS NOT
                                                                   IMPLEMENTED KEY RECOMMENDATIONS THAT
                                                                   ADDRESSED CAUSES OF IMPROPER PAYMENTS
                                                                   AND FRAUD




                                                                                      Date Issued:   September 30, 2014
                                                                                   Report Number:      03-14-003-03-315
U.S. Department of Labor                             September 30, 2014
Office of Inspector General
Office of Audit                                      THE DISTRICT OF COLUMBIA'S DEPARTMENT OF
                                                     EMPLOYMENT SERVICES HAS NOT IMPLEMENTED
                                                     KEY RECOMMENDATIONS THAT ADDRESSED
BRIEFLY…                                             CAUSES OF IMPROPER PAYMENTS AND FRAUD
Highlights of Report Number 03-14-003-03-315,
issued to the Assistant Secretary for Employment     WHAT OIG FOUND
and Training.                                        DC DOES implemented corrective actions for 62 of
                                                     the 69 recommendations that covered various
WHY READ THE REPORT
                                                     program integrity mechanisms, such as use of the
The Assistant Secretary for Employment and
                                                     State Information Data Exchange System,
Training requested the Office of Inspector General
                                                     Treasury Offset Program, and National Directory of
(OIG) to conduct an investigation of allegations
                                                     New Hires. However, it did not take sufficient
concerning fraudulent Unemployment Insurance
                                                     action to completely address and implement seven
(UI) benefit payment issues at the District of
                                                     key recommendations, and we were not able to
Columbia (DC) Department of Employment
                                                     evaluate the corrective actions taken for two
Services (DC DOES). At the time of the request,
                                                     recommendations because they were
DC OIG was in the process of planning and
                                                     implemented after the completion of our audit
conducting reviews to specifically address the
                                                     work. Corrective actions for these
allegations regarding UI benefits. Also, in 2012,
                                                     recommendations are needed to address
DC DOES requested the National Association of
                                                     problems found in DC DOES’ UI claims process,
State Workforce Agencies (NASWA) to perform a
                                                     including its ability to detect and recover improper
comprehensive review of its UI operations.
                                                     UI benefit payments, and prevent fraudulent UI
Therefore, we decided to start this audit after
                                                     claims from occurring.
DC DOES and NASWA completed their reviews,
and to focus on the corrective actions that
                                                     WHAT OIG RECOMMENDED
DC DOES took, or planned to take, to address the
                                                     We recommended that the Assistant Secretary for
reviews’ recommendations. Our audit covered 69       Employment and Training require DC DOES to
recommendations made by DC OIG and NASWA
                                                     develop and implement policies and procedures to
related to DC DOES’ processing of UI claims and      track the status of all audit report
detecting and recovering improper payments.          recommendations. These policies and procedures
WHY OIG CONDUCTED THE AUDIT                          should prioritize the corrective actions to be taken,
Our audit objective was to answer the following      set milestones, and assign responsibility to the
question:                                            appropriate senior DC DOES official to ensure the
                                                     recommendations are implemented timely and
   Did DC DOES implement corrective                  functioning as intended.
   actions to address the findings and
   recommendations identified in the DC
   OIG evaluations and NASWA analysis
   regarding problems found in its UI
   claims process?

READ THE FULL REPORT
To view the report, including the scope,
methodology, and full agency response, go to:
http://www.oig.dol.gov/public/reports/oa/2014/03-
14-003-03-315.
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                      DC DOES Progress on UI Recommendations
                                  Report No. 03-14-003-03-315
                                                                U.S. Department of Labor – Office of Inspector General




Table of Contents


Inspector General’s Report .......................................................................................... 1


Results ........................................................................................................................... 3


Objective – Did DC DOES implement corrective actions to address the findings

and recommendations identified in the DC OIG evaluations and NASWA analysis 

regarding problems found in its UI claims process?................................................. 3

          A) Three recommendations to address problems that resulted from

             disabling the automated processing controls were not implemented. ............. 4

          B) Corrective actions for two recommendations related to DC government

             employees who improperly collected UI benefits while employed were 

             not completely implemented............................................................................ 6

          C) Repayment agreements were not adequately monitored for

             compliance. ..................................................................................................... 8

          D) A quality assurance mechanism to verify UI claimants' eligibility before 

             the payment of UI benefits was not developed................................................ 9

          E) DC DOES had not executed a contract with a firm to conduct vital

             records cross matches. ................................................................................. 10

          F) An Internal Auditor position reporting to the Director had not been 

             filled............................................................................................................... 10


Recommendations ...................................................................................................... 11


Exhibit ............................................................................................................................ 1

          List of Reports and 69 Recommendations Reviewed ........................................... 3


Appendices.................................................................................................................. 23

          Appendix A Objective, Scope, Methodology, and Criteria .................................. 25

          Appendix B Acronyms ........................................................................................ 29

          Appendix C DC DOES Response to Draft Report .............................................. 31

          Appendix D Acknowledgements ......................................................................... 37





                                                                            DC DOES Progress on UI Recommendations
                                                                                        Report No. 03-14-003-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                      DC DOES Progress on UI Recommendations
                                  Report No. 03-14-003-03-315
                                            U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                  Office of Inspector General
                                          Washington, D.C. 20210




September 30, 2014

                              Inspector General’s Report

Ms. Portia Y. Wu
Assistant Secretary
 for Employment and Training
200 Constitution Avenue, N.W.
Washington, DC 20210

The Unemployment Insurance (UI) program is designed to provide benefits to
individuals out of work, generally through no fault of their own, for periods between jobs.
In order to be eligible for benefits, jobless workers must demonstrate workforce
attachment, usually measured by amount of wages and/or weeks of work, and must be
able and available for work. The UI program is administered at the state level but is
funded by both state and federal monies. The U.S. Department of Labor’s (DOL)
Employment and Training Administration (ETA) is responsible for monitoring the UI
program to ensure the states operate it effectively and efficiently. This oversight
includes ensuring the states do not provide unemployment compensation to ineligible
recipients and ensuring states detect these overpayments when they do occur. In the
District of Columbia (DC), the Department of Employment Services (DC DOES) is
responsible for administering the UI program for DC citizens.

In 2011, there were allegations of fraudulent activities at DC DOES that DC DOES staff
falsely created Ul claims and provided Ul benefits to certain individuals to whom they
were related; fraudulently charged employer UI taxes for individuals who were not the
employer’s employees; and charged costs to the UI administrative grants for salary
expenses to individuals who were not entitled to receive payments. In 2011, the DC
Office of Inspector General (DC OIG) issued two reports of its special evaluation of DC
DOES’ UI claims process in which it found automated controls designed to prevent
improper and fraudulent payments were “turned off.”

On October 6, 2011, the DOL Assistant Secretary for Employment and Training
requested that the Office of Inspector General (OIG) conduct an investigation of
allegations concerning fraudulent UI benefit payment issues at DC DOES. We
conducted two audits as a result of this request. Since DC OIG was already planning
and conducting reviews specifically addressing the UI benefit allegations, we first
conducted an audit of DC DOES’ financial management of ETA grants, for which we
issued the final report in March 2013. This report covered DC DOES’ non-financial
administration of the UI program. DOL OIG’s Office of Labor Racketeering and Fraud
Investigations also initiated criminal investigations of DC government employees who
allegedly fraudulently collected UI benefits of $15,000 or more.


                                                        DC DOES Progress on UI Recommendations
                                              1                     Report No. 03-14-003-03-315
                                           U.S. Department of Labor – Office of Inspector General




In July 2012, DC OIG issued a follow-up report to its 2011 special evaluations it
conducted of DC DOES’ UI process. Also, in 2012, DC DOES contracted with the
National Association of State Workforce Agencies (NASWA) to analyze and evaluate
DC DOES’ UI business processes and information technology (IT) structure. The
primary aim of the analysis and evaluation was to identify both short and long-term
actions DC DOES could take to improve the performance, efficiency, and overall
integrity of its UI program.

In fiscal year (FY) 2012, DC DOES also launched a UI fraud probe to uncover DC
government employees who received UI benefits while employed. The alleged fraud
involved DC government workers who had lost their jobs and legitimately received UI
benefits while unemployed, but failed to inform DC DOES when they returned to work.
The UI fraud probe identified 90 DC government employees who may have collected UI
benefits while employed. NASWA’s report to DC DOES contained several
recommendations that addressed controls related to this UI fraud probe.

Together, DC OIG and NASWA made a total of 136 recommendations, of which 69
addressed significant internal control deficiencies related to processing UI claims and
detecting and recovering improper payments. We conducted an audit to answer the
following question:

      Did DC DOES implement corrective actions to address the findings and
      recommendations identified in the DC OIG evaluations and NASWA
      analysis regarding problems found in its UI claims process?

This audit covered corrective actions that DC DOES took, or planned to take, to address
69 recommendations related to processing UI claims and detecting and recovering
improper payments that were made in separate reports by DC OIG and NASWA. We
tested corrective actions DC DOES took at the time of our audit to determine their
effectiveness in addressing the DC OIG and NASWA recommendations. We
interviewed key DC DOES staff, reviewed DC DOES policies and procedures, and
evaluated internal controls that DC DOES had in place regarding implementing
corrective actions to address the recommendations.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our conclusions based
on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our conclusions based on our audit objective.




                                                    DC DOES Progress on UI Recommendations
                                            2                   Report No. 03-14-003-03-315
                                          U.S. Department of Labor – Office of Inspector General


Results

Objective – Did DC DOES implement corrective actions to address the findings
            and recommendations identified in the DC OIG evaluations and
            NASWA analysis regarding problems found in its UI claims process?


DC DOES implemented corrective actions for 62 of the 69 recommendations that
covered various program integrity mechanisms, such as use of the State Information
Data Exchange System (SIDES), Treasury Offset Program (TOP), and National
Directory of New Hires (NDNH), but did not take sufficient action to completely address
and implement seven key recommendations and we were not able to evaluate the
corrective actions taken for two recommendations because they were implemented after
the completion of our audit work. Corrective actions for these recommendations are
needed to address problems found in DC DOES’ UI claims process, including its ability
to detect and recover improper UI benefit payments, and prevent fraudulent UI claims
from occurring. Specifically, we found that DC DOES had not:

   •	 Addressed the problems that occurred when it disabled automated UI processing
      controls during the period February 2009 through July 2010. Specifically, DC
      DOES had not identified the individuals who were not eligible for but received UI
      benefits, and recouped the UI benefits improperly paid to them.

   •	 Completed and issued written policy for requesting and implementing
      programming modifications to its UI management information system (MIS) —
      like those that occurred when the automated controls were disabled — including
      requirements to document that the DC DOES Director and General Counsel
      reviewed the programing modifications and forwarded a copy of the modifications
      to the DC Inspector General.

   •	 Modified the DC DOES system Change Approval form for programming changes
      to the UI MIS to require the DC DOES Director’s and General Counsel’s review
      and approval of the form, as well as the inclusion of all relevant information, such
      as the reason for a computer system change, the effect of not implementing the
      change, and a risk assessment.

   •	 Implemented controls to ensure that DC government employees who received UI
      benefits while employed were identified and appropriate action taken.

   •	 Identified and recovered funds from DC government and private sector

      employees who improperly collected UI benefits.


   •	 Adequately monitored repayment agreements for compliance.

   •	 Developed a quality assurance mechanism to verify UI claimants’ eligibility

      before UI benefit payments are made.



                                                   DC DOES Progress on UI Recommendations
                                            3                  Report No. 03-14-003-03-315
                                                      U.S. Department of Labor – Office of Inspector General

Although DC DOES officials told us that the Director and UI managers and supervisors
monitor and track corrective actions and meet bi-weekly on the corrective actions’
status, DC DOES management did not establish milestone dates for completing the
recommendations’ corrective actions and did not perform any follow-up work to ensure
the corrective actions were completed and implemented as designed.

DC DOES completed corrective actions for two of the nine outstanding
recommendations after our fieldwork was done; therefore, we were not able to test the
effectiveness of the corrective actions. Specifically, DC DOES:

    •	 Contracted with a firm to assist the agency in using vital records, including
       prisoner data, to perform cross matches with UI claimants and identify possible
       improper payments.

    •	 Hired a degreed and certified internal auditor who reports to the DC DOES
       Director.

Until DC DOES completes the corrective actions noted above to completely address the
nine key recommendations, the risk of UI benefit improper payments and fraud
occurring will continue, and amounts owed to the UI trust fund will not be recovered.

All nine recommendations that have not been completely implemented, or were
implemented but we were not able to test the effectiveness of the corrective actions, are
discussed in detail below.

A) Three recommendations to address problems that resulted from disabling the
   automated processing controls were not implemented.

DC OIG issued a report to DC DOES in June 2011 1 of its review of a referral that
controls in its District On-Line Compensation System (DOCS) were disabled. All UI
applications for benefits are processed using DOCS. The report stated that in January
2011, a DC DOES official from its Office of Unemployment Compensation (OUC)
informed DC OIG that a former manager in OUC requested programmers to “turn off”
certain indicators or safeguards in DOCS. These safeguards were in place to prevent or
stop payment of UI benefits in cases where the applicant stated he/she had refused
work, quit a job, was discharged from a job, was not available or able to work, or was
not actively seeking work. 2 The report stated that the controls were disabled for more
than 17 months, from February 2009 to July 2010. The DC OIG report contained four
recommendations, three of which DC DOES had not implemented:




1
  Management Alert Report (MAR 11-1-001), entitled Computer Programming Safeguards for Accurate Issuance of
Unemployment Benefits Were Inappropriately Turned Off Due to Inadequate Internal Controls, June 8, 2011
2
  DC Code 51-109 required that an individual must be available and physically able to work and have a minimum of 2
contacts for new work for each week of employment. DC Code 51-110 provided examples of situations that disqualify
an individual from receiving benefits. The examples included voluntarily leaving most recent employment without
good cause connected to work, termination due to gross misconduct, or failure to accept suitable work.

                                                                 DC DOES Progress on UI Recommendations
                                                        4                    Report No. 03-14-003-03-315
                                            U.S. Department of Labor – Office of Inspector General


   1. Determine the number of claims for which issues were not detected when
      indicators were disabled from February 2009 through July 2010 to ensure that
      only eligible individuals received unemployment benefits. Further, take necessary
      actions to recoup unemployment benefits that were not issued in accordance
      with statutes and regulations while these indicators were disabled. The results of
      these actions should be reported to the Inspector General when completed.

   2. Expeditiously ensure the completion and issuance of a clear and detailed written
      policy for requesting and implementing programming modifications to its MIS,
      and formalize a mechanism by which such a policy will be periodically reviewed
      and updated. The final policy should be reviewed by the DOES General Counsel
      and the Director, and a copy forwarded to the Inspector General.

   3. In collaboration with the MIS vendor, modify the existing DOES System Change
      Approval form to require the review and approval by the Director and General
      Counsel of DOES, as well as the inclusion of all relevant information, such as the
      reason for a computer system change, the effect of not implementing the change,
      and a risk assessment.

As a result, DC DOES cannot ensure that the $4 million in benefits paid during this 17-
month period were made to only eligible claimants, and it remains at increased risk to
unauthorized changes being made to its UI MIS.

For the first recommendation DC DOES officials told us that they performed an
investigation and identified claimants who were affected during the time the controls
were disabled. DC DOES informed DC OIG that it would contact each claimant and
determine their eligibility for UI benefits during the weeks in question, as well as any
subsequent weeks. If the claimant did not meet the requirements for payment of UI
benefits under the law, DC DOES stated it would establish the ineligibility and
overpayment.

To verify the actions DC DOES said it took, we requested supporting documentation for
the affected claimants, the action taken to determine their eligibility, and the action
taken on those who DC DOES determined were not eligible for UI benefits. DC DOES
officials could not provide adequate documentation to support any of the actions they
said they had taken. They did provide an electronic spreadsheet containing 2,672
claimants and UI benefits totaling $3,924,828 that was paid to them.

DC DOES officials told us that to determine claimant eligibility, they mailed each of the
identified claimants a notice requesting them to answer questions on work availability
and reasons why their employment was terminated. DC DOES officials said that 1,325
claimants responded and they identified 261 claimants who responded in a way that
raised questions as to their eligibility for UI benefits. The benefits paid to the 261
claimants totaled $423,023. DC DOES officials provided copies of Restitution
Agreements for 28 claimants who owed a total of $25,475, but could not explain why
they took action on only 28 claimants when they said they had identified 261 as being
questionable. Also, DC DOES officials could not provide any documentation to

                                                     DC DOES Progress on UI Recommendations
                                             5                   Report No. 03-14-003-03-315
                                          U.S. Department of Labor – Office of Inspector General


substantiate the number of possible ineligible claimants and the amount of possible UI
benefit overpayments, and could not explain what action, if any, they took on those
1,347 claimants who did not respond to the notices that were mailed to them.

Regarding the second unimplemented recommendation, DC DOES’ actions were not
complete. On November 21, 2013, DC DOES issued policy number DOES-SEC-002,
Change Control Policy, which addressed the corrective action in that it provided
guidelines covering the life cycle of all information systems, including change
management. However, DC DOES officials told us that they did not forward the policy to
the DC DOES General Counsel for review and approval because the DC DOES
General Counsel does not have the requisite technical knowledge to review and
approve technical policies. DC DOES officials also told us they assumed the OIG
referenced in the recommendation referred to DOL OIG, not DC OIG. We disagreed
with DC DOES’ conclusion. We believe the intent of the recommendation was to ensure
the policies, including those that were technical, were reviewed for legal compliance by
the DC DOES General Counsel, including an independent review by DC OIG.

DC DOES’ actions to address the third recommendation were also incomplete. The
DOES System Change Approval form contained information regarding the effective date
of change, resource effort, lead, summary description, and signatures for UI
management, Office of Information Technology (OIT) management, and MIS contractor
management. However, the form did not provide for or require review and approval by
the DC DOES Director and DC General Council, risk assessment, reason for making
change, and the effect of not making the change, as required by the recommendation.
The DC OIG report stated that DC DOES’ General Council review and approval was
important to ensure that programming changes were in compliance with current
regulations.

B) Corrective actions for two recommendations related to DC government
   employees who improperly collected UI benefits while employed were not
   completely implemented.

DC DOES did not implement corrective actions for two recommendations that
addressed fraud that occurred when DC government employees received UI benefits
while working for DC government. Although DC DOES implemented a process to
identify DC government employees who received UI benefits while working, it did not
develop written policies and procedures covering this new process. Written policies and
procedures are needed to ensure the process is working as designed and
management’s directives are followed. Additionally, DC DOES could not demonstrate
that it took action on those employees who were found to be simultaneously working
and receiving UI benefits. As a result, DC DOES cannot ensure that improperly paid UI
benefits to these DC government employees were recovered.

NASWA found that DC DOES did not have a process to prevent DC DOES employees
from obtaining UI benefits while working. NASWA recommended that DC DOES:



                                                   DC DOES Progress on UI Recommendations
                                           6                   Report No. 03-14-003-03-315
                                            U.S. Department of Labor – Office of Inspector General

   4.	 Implement a process to identify DC government employees receiving UI benefits
       and take action if they are not eligible.

   5.	 Monitor repayment agreements for DC government employees who owe DC
       DOES amounts related to UI overpayments.

We found that DC DOES implemented a process in FY 2013 to identify all active DC
government employees receiving UI benefits, as recommended by NASWA. DC DOES
officials explained that it is not always possible to stop the initial UI benefit payment to
individuals who may be working for the DC government because of the required time
limits in which initial UI benefit payments have to be made. Therefore, DC DOES relies
on subsequent reviews to identify and stop such payments, including recovering any
improper payments. DC DOES officials told us that the OIT developed an application
that compared the entire DC government payroll to its UI recipient data base to create a
report called the “watch dog” report. The watch dog report identified employees who
were working for DC and simultaneously receiving UI benefits. However, DC DOES did
not develop written policies and procedures covering this new process or the action to
be taken on those employees who were found to be simultaneously working and
receiving UI benefits. Such policies and procedures are needed to ensure the
processes for identifying DC government employees who receive UI benefits are
performed in a consistent manner, DC DOES employees responsible for performing the
processes understand their responsibilities and what is expected of them, and DC
DOES management can rely upon them to meet UI program integrity objectives.

We requested copies of the ‘watch dog’ reports for the months October through
December 2013, and DC DOES’ action it took on employees shown to be collecting UI
benefits. Table 2 reflects the results of the ‘watch dog’ reports:

   Table 2: ‘Watch Dog’ Report Results
                                   Number of Claimants Collecting UI Benefits While
   Report Date                           Employed by the DC Government
   October 26, 2013                                     124
   November 9, 2013                                      82
   November 23, 2013                                     76
   December 7, 2013                                      80
   December 21, 2013                                     66

DC DOES could not provide any documentation to support actions taken on claimants
identified in the ‘watch dog’ reports. As a result, these people could still be improperly
receiving UI benefits. We did not perform work to determine if any of these claimants
improperly received UI benefits.

Additionally, DC DOES could not demonstrate that it took appropriate action on
individuals identified through its 2012 fraud probe to determine if these employees
fraudulently applied for and/or received UI benefit payments while employed by the DC
government. We reviewed documentation of DC DOES’ collection efforts as a result of
its 2012 UI fraud probe. DC DOES provided repayment schedules for DC government

                                                     DC DOES Progress on UI Recommendations
                                             7                   Report No. 03-14-003-03-315
                                            U.S. Department of Labor – Office of Inspector General


employees who improperly received UI benefit payments. Our review of the
documentation found the narrative portion of the overpayment case status did not
reconcile to information on a separate repayment schedule. We found at least 20
instances in which claimants names appeared as having repayment case status but
were not listed on the repayment schedule, or vice versa. Of these 20, there were at
least 10 instances where no information was given, such as balance owed or date of
payment received for the claimant. We also found long time lags between when the
overpayment was established and when the first payment was received. For example,
in the narrative portions of an overpayment case status, we found the case was settled
and a garnishment request made on September 24, 2012. However, the repayment
schedule for this case showed that the first payment of $89 dollars was not made until
May 3, 2013, 8 months later. This raises questions as to the effectiveness of DC DOES’
monitoring of the repayment agreements.

We concluded that the repayment schedules provided by DC DOES were not reliable,
and therefore, UI benefit payments improperly paid to claimants were not always
identified and recovered.

C) Repayment agreements were not adequately monitored for compliance.

DC DOES did not implement corrective action for a recommendation that addressed
monitoring of all repayment agreements for compliance. DC DOES had not yet
developed policies and procedures for monitoring all repayment agreements and could
not provide sufficient documentation to demonstrate that the monitoring efforts it did
perform were effective in ensuring claimants complied with their repayment agreements.

NASWA reported that DC DOES monitored only the repayment agreements for DC
government employees on a regular basis, and subjected only DC government
employees to wage garnishment. NASWA recommended that DC DOES:

   6. Monitor for compliance all repayment agreements, including employers who
      owed DC DOES for underpayment of UI wage taxes.

DC DOES officials told us they maintain a database on all overpayments and UI wage
tax underpayments, which contains information on the established repayment amount
and its current balance. DC DOES had established $5 million in repayment agreements
between individuals and employers. However, it did not have policies and procedures in
place for monitoring repayment agreements. OUC planned to develop such policies and
procedures to ensure debts are collected in a uniform manner. DC DOES officials also
stated that they recently established a collections unit consisting of a staff of seven that
is responsible for monitoring repayment agreements for compliance.

We confirmed through interviews that DC DOES had established a collections unit to
monitor repayment agreements. However, our comparison of the overpayment
database and documentation that DC DOES provided as support identified
discrepancies that led us to question the reliability of the database and the adequacy of
DC DOES’ monitoring.

                                                     DC DOES Progress on UI Recommendations
                                             8                   Report No. 03-14-003-03-315
                                                       U.S. Department of Labor – Office of Inspector General



For example, DC DOES had a repayment agreement with a claimant that started on
May 19, 2012, for $8,567. The agreement called for monthly payments of $200. As of
December 17, 2013, the time of our audit, the balance should have been $4,767. 3
According to DC DOES’ records, the balance as of December 17, 2013, was $8,457,
and the claimant was current and compliant with the repayment agreement. However,
according to our calculation the claimant had paid only $110 instead of $3,800 as per
the repayment agreement. In another example, DC DOES had a repayment agreement
with an employer that started on March 21, 2007, for $26,523. The agreement called for
monthly payment of $1,500. As such, by December 17, 2013, the balance should have
been paid in full. However, according to DC DOES’ records, the balance as of
December 17, 2013, was $13,523 and the claimant was current and compliant with the
repayment agreement. DC DOES’ status report of these repayment agreements
showed the claimant was current and complying with the repayment agreements.

Based on our analysis, we do not place any confidence on DC DOES’ monitoring of all
repayment agreements to ensure they are in compliance

D) A quality assurance mechanism to verify UI claimants' eligibility before the
   payment of UI benefits was not developed.

DC DOES did not implement corrective action for a recommendation to create a quality
assurance process to ensure all required verifications, such as cross matches with
SIDES and NDNH, were performed of UI claimants before benefit payments were
made. As a result, DC DOES is at significant risk of paying UI benefits to ineligible and
high-risk claimants.

In its July 2012 report, 4 DC OIG found numerous deficiencies in DC DOES’ UI claims
processing and made 18 recommendations, 17 of which DC DOES implemented. The
recommendation not implemented was that DC DOES:

    7. Create a quality assurance process as part of the UI eligibility determination.

DC DOES officials told us that in response to the remaining recommendation to create a
quality assurance process, they made technical enhancements to DOCS and formed a
Claims Validation Unit. We confirmed that technical enhancements such as
cross-matches with SIDES and NDNH had been made, but DC DOES could not
demonstrate that the Claims Validation Unit it formed was operational. DC DOES
provided the unit’s mission statement and a list of employees, but it did not have
policies and procedures specific to the unit, and the unit was not included on DC DOES’
organization chart. We interviewed two of the unit’s six employees who told us they
performed UI claims validation functions but did not document their work. DC DOES did
not have any reports of the unit’s workload or production. Without established policies,
procedures, and metrics for this new unit, DC DOES could not measure the adequacy
3
 $8,567 - $3,800 (19 months x $200 month)

4
 Report of Special Evaluation (12-I-0046CF), entitled District of Columbia, Department of Employment Services,

Office of Unemployment Compensation, Part II, July 2012


                                                                 DC DOES Progress on UI Recommendations
                                                         9                   Report No. 03-14-003-03-315
                                            U.S. Department of Labor – Office of Inspector General




of the unit’s performance in ensuring UI claimants were eligible for UI benefits before
receiving them.

E) DC DOES had not executed a contract with a firm to conduct vital records
   cross matches.

DC DOES implemented corrective actions for a recommendation in the NASWA report
that addressed performing matches against vital records to detect UI claims filed using
Social Security Numbers (SSN) of deceased individuals. However, the corrective action
was taken after we completed our fieldwork and we were not able to determine its
effectiveness.

NASWA recommended that in order to reduce fraud, DC DOES needed to:

   8. Gain real-time access to vital records to ensure a claimant’s social security
      information was valid and did not belong to a deceased individual.

DC DOES procured a contractor to provide access to vital records to assist DC DOES
in certifying UI claims. However, because the contract was executed after our fieldwork,
we were not able to evaluate its effectiveness.

F) An Internal Auditor position reporting to the Director had not been filled.

NASWA recommended that to prevent the type of integrity issues that occurred in the
recent past, DC DOES needed to:

   9. Establish an Internal Audit position and/or office, with a degreed, certified 

      individual who reports to the Director.


We found that DC DOES established a compliance unit and hired a degreed and
certified internal auditor to lead this unit. The internal auditor reports to the Director.
However, the internal auditor was hired after we completed our fieldwork; consequently
we were not able to evaluate adequacy of the corrective action taken.

In summary, it is important that DC DOES complete all actions required to adequately
address the nine outstanding recommendations to prevent or mitigate the potential for
fraud in its unemployment system. Our review found that DC DOES did not ensure that
the appropriate individuals were assigned to each action item, milestones for completion
were established, and progress was monitored until all actions were completed. Such a
system would help DC DOES ensure it completes the remaining actions on these
recommendations and that it promptly and fully addresses any future recommendations
to the agency.




                                                     DC DOES Progress on UI Recommendations
                                             10                  Report No. 03-14-003-03-315
                                          U.S. Department of Labor – Office of Inspector General


Recommendations

We recommend that the Assistant Secretary for Employment and Training require DC
DOES to:

   1. Develop and implement policies and procedures to track the status of all audit
      report recommendations. These policies and procedures should prioritize the
      corrective actions to be taken, set milestones, and assign responsibility to the
      appropriate senior DC DOES official to ensure the recommendations are
      implemented timely and functioning as intended.

   2. Regarding the first recommendation cited in Results A, determine to the extent
      possible, the number of claims for which issues were not detected when
      indicators were disabled from February 2009 through July 2010 to ensure that
      only eligible individuals received unemployment benefits and take necessary
      actions to recoup unemployment benefits that were improperly issued.

   3. Complete corrective actions related to the remaining eight recommendations
      made in the DC OIG and NASWA reports that we found were either not fully
      implemented or were implemented after our fieldwork.


DC DOES Response

DC DOES officials agreed with the report recommendations and stated that they have
recently created a Program Performance Monitoring unit to improve status tracking of all
audit report recommendations. However, DC DOES did not agree with the report’s
Results A and D. For Results A, DC DOES officials stated that their Benefit Payment
Control unit identified, investigated, established, and recovered a material number of
improper payments and can confidently estimate that the aggregate amount of improper
payments will be approximately $500,000. Concerning the DOES-SEC-002, Change
Control Policy, DC DOES officials stated it is their position that the DC DOES General
Counsel does not have the requisite technical knowledge to review and approve
technical policies and forwarding DC DOES policy to DC OIG is not standard operating
procedure. Finally, concerning the DOES System Change Approval form, DC DOES
officials stated that they implemented an automated approval workflow solution that
addressed the DC OIG’s recommendation.

For Results D, DC DOES officials stated that in addition to developing policies and
procedures for quality assurance verifications, they have fully staffed the Claims
Validation Unit and it is fully operational.


OIG Conclusion

DC DOES’ response did not change the audit results. For Results A, since the
information in DC DOES’ response was provided after our audit work, we could not

                                                   DC DOES Progress on UI Recommendations
                                           11                  Report No. 03-14-003-03-315
                                         U.S. Department of Labor – Office of Inspector General

substantiate its accuracy and validity. Concerning DOES-SEC-002, Change Control
Policy, it is our position that DC OIG required DC DOES’ General Council’s review and
approval to ensure that programming changes complied with regulations. Regarding the
DOES System Change Approval form, our audit report states that DC DOES
implemented use of the form but it was missing some of the elements required by DC
OIG’s recommendation — review and approval by the DC DOES Director and DC
General Council, risk assessment, reason for making change, and the effect of not
making the change.

For Results D, the audit report states that DC DOES’ created and staffed a Claims
Validation Unit; however, DC DOES’ response did not provide policies and procedures
specific to the unit and metrics for this new unit that are needed to measure the
adequacy of its performance.


We appreciate the cooperation and courtesies that ETA and DC DOES officials
extended to the OIG during this audit. OIG personnel who made major contributions to
this report are listed in Appendix D.




Elliot P. Lewis
Assistant Inspector General
  for Audit




                                                  DC DOES Progress on UI Recommendations
                                          12                  Report No. 03-14-003-03-315
           U.S. Department of Labor – Office of Inspector General




Exhibit





                    DC DOES Progress on UI Recommendations
            1                   Report No. 03-14-003-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                      DC DOES Progress on UI Recommendations
              2                   Report No. 03-14-003-03-315
                                          U.S. Department of Labor – Office of Inspector General




List of Reports and 69 Recommendations Reviewed

                                                      DC DOES                      OIG
No.             Recommendation                     Corrective Action            Conclusion

Report of Special Evaluation of the DC DOES Unemployment Compensation
Benefits Division, DC OIG Report No. OIG 11-I-0038CF, February 2011

                                           Developed standard
                                           operating procedures
      Ensure the completion and issuance
                                           (SOP) and distributed
      of a comprehensive policies and
                                           them to OUC staff in
      procedures manual for processing
1                                          FY 2011 and 2012.                  Implemented
      unemployment claims, and formalize a
                                           Each policy identified
      mechanism by which it will be
                                           the effective date and
      periodically reviewed and updated.
                                           review date.

      Provide structured, formal classroom       OUC supervisory staff
      training on processing initial claims to   and DOL provided
      its claims examiners and adjudicators.     necessary training to
2                                                                             Implemented
      Also provide adequate on-the-job           both claims examiners
      training on processing initial claims to   and adjudicators.
      its claims examiners and adjudicators.
                                            Developed polices that
                                            require interviews to be
                                            performed on
      Identify and implement strategies to
                                            departing employees.
      increase employee retention in senior
                                            Interviews are
      positions. Also implement a policy
                                            designed to identify
      requiring DOES Human Resource
                                            workplace,
3     (HR) employees to conduct formal exit                          Implemented
                                            organizational or
      interviews upon an employee’s
                                            human resource
      departure, or consider routinely
                                            factors that contributed
      requesting the results of the exit
                                            to an employee’s
      interviews from DC HR.
                                            decision to leave the
                                            agency.




                                                   DC DOES Progress on UI Recommendations
                                            3                  Report No. 03-14-003-03-315
                                          U.S. Department of Labor – Office of Inspector General




                                                       DC DOES                     OIG
No.             Recommendation                    Corrective Action             Conclusion
                                                Established a quality
                                                assurance group and it
                                                performed data
                                                validation within UI
      Identify and implement strategies to
                                                program.
      ensure that there is an ongoing quality
      assurance and performance
                                                Made case aging and
4     monitoring program and that                                             Implemented
                                                workloads available to
      progressive disciplinary actions are
                                                employees and
      taken as needed in accordance with
                                                routinely send to staff
      the District Personnel Manual.
                                                as a means of
                                                monitoring
                                                performance.

                                                Made enhancements
                                                to the MIS which
                                                included a
                                                comprehensive review
                                                and validation of
      Implement enhancements to the MIS
                                                federal reports, a
      to routinely produce real time reports
5                                               refinement of existing        Implemented
      of aggregate division and individual
                                                bi-weekly internal
      employee performance data.
                                                reports, and the
                                                development of an
                                                intranet reporting
                                                system.


DC DOES, Office of Employment Compensation – Part II, Report of Special Evaluation,
DC OIG Report No. OIG 12-I-0046CF, July 2012

                                                Published updated
      Implement strategies to educate           Employer Handbook
      employers and to enhance the              on May 13, 2013,
6     Separation Form to improve                which describes the           Implemented
      employers’ responses to requests for      process on obtaining
      separation information.                   separation information.

                                                Implemented access to
                                                and use of SIDES on
7     Gain access to and use SIDES.                                   Implemented
                                                September 30, 2012.




                                                   DC DOES Progress on UI Recommendations
                                           4                   Report No. 03-14-003-03-315
                                          U.S. Department of Labor – Office of Inspector General




                                                         DC DOES                   OIG
No.             Recommendation                      Corrective Action           Conclusion
                                                 In October 2012,
                                                 instituted monthly
                                                 training for all OUC
                                                 staff to ensure that
                                                 DOL performance
                                                 standards were
                                                 communicated to staff.
      Increase training to ensure
                                                 OUC supervisory staff
      adjudicators are adequately skilled
                                                 and DOL provided
      and knowledgeable. Ensure training
                                                 necessary training to
8     topics include areas identified as                                      Implemented
                                                 both claims examiners
      weaknesses from such quality
                                                 and adjudicators.
      assurance mechanisms as
      supervisory case reviews.
                                                 Made case aging and
                                                 workload reports
                                                 available to employees
                                                 and are routinely sent
                                                 to staff as a means of
                                                 monitoring
                                                 performance.

      Clarify with the U.S. Department of
      Health and Human Services (HHS)            Clarified HHS’
      any restrictions on documenting and        restriction on
      retaining the information transmitted to   documenting and
9     NDNH as well as the results of all         retaining results of         Implemented
      NDNH verifications in a centralized        NDNH verifications.
      computer system, including the date        This is in compliance
      and result of the verification for each    with HHS directives.
      claimant.
      Conduct NDNH verifications for all
                                                 Conducted a
      previous unemployment claims dating
10                                               2-year reach-back of         Implemented
      back as far as HHS indicates is
                                                 NDNH records.
      possible.




                                                   DC DOES Progress on UI Recommendations
                                            5                  Report No. 03-14-003-03-315
                                            U.S. Department of Labor – Office of Inspector General




                                                          DC DOES                    OIG
No.             Recommendation                       Corrective Action            Conclusion
                                                  Resolved the
                                                  outstanding items of
                                                  concern that were
                                                  identified by DOL with
                                                  the submission and
                                                  approval of final SOPs.       Implementation
      Comply with DOL recommendations
                                                  In July 2014, DOL will        will be verified
11    regarding implementing internal
                                                  conduct an onsite             in DOL’s onsite
      controls.
                                                  review of DC DOES             review.
                                                  processes to verify the
                                                  implementation of its
                                                  Corrective Action
                                                  Plans.

      Implement a system to automatically
      check whether claimants have claims
                                                  Implemented the use
      in other states when they file a new
                                                  of the automated
      claim, regardless of how the claim is
                                                  Interstate Connection
      filed, and document these
12                                                Network to identify and       Implemented
      verifications. If DOES is unable to
                                                  stop multiple claims
      automate these verifications, they
                                                  from being filed within
      should ensure that employees
                                                  the same benefit year.
      consistently conduct and document
      these verifications for all claims
                                                  Implemented
                                                  automated safeguards
                                                  in the benefit payment
      Electronically record the results of all
                                                  system to prevent
      verifications conducted to determine
                                                  concurrent payments
13    whether claimants are already                                             Implemented
                                                  on claims filed with the
      receiving UI benefits by DC DOES at
                                                  same SSN with
      the time of filing new claims.
                                                  overlapping benefit
                                                  years.


      Review computer safeguards to
      ensure that it does not allow claimants     See corrective action
14                                                                              Implemented
      to receive payments from multiple UI        in number 13.
      claims simultaneously by DC DOES.




                                                     DC DOES Progress on UI Recommendations
                                             6                   Report No. 03-14-003-03-315
                                        U.S. Department of Labor – Office of Inspector General




                                                  DC DOES                        OIG
No.            Recommendation                 Corrective Action               Conclusion
                                           Safeguards existed to
                                           prevent concurrent
                                           payments on claims
                                           with overlapping
                                           benefit years. Took
                                           additional measures
    Explore automated mechanisms that      and attached names
    would reduce claims filed in error for and SSNs to the wage
15  reasons such as already having an      record file to reduce            Implemented
    open UI claim, entering incorrect SSN, the possibility that
    and not earning wages in DC.           claims filed under the
                                           incorrect SSNs will be
                                           erroneously paid. Put
                                           in place verifications to
                                           ensure claimant had
                                           earned wages within
                                           DC.
                                           There are regular
                                           supervisory reviews of
    Ensure that a supervisor regularly
                                           the alien verification
    reviews a sample of claims with alien
                                           process. Reports are
    registration numbers to ensure that
                                           generated daily to
16  Systematic Alien Verification for                                       Implemented
                                           show exceptions and
    Entitlements (SAVE) verifications are
                                           outstanding claims that
    conducted and documented properly
                                           need to be verified
    and timely.
                                           through the SAVE
                                           program.
     Ensure that OUC has detailed written
                                              Completed the SOP for
17   procedures for conducting and                                  Implemented
                                              SAVE in August 2012.
     documenting SAVE verifications.
                                          Included the SAVE
     Ensure that OUC has adequate         process in the claims
     coverage for SAVE verifications when validation unit which
18                                                                          Implemented
     the regularly assigned employee is   will ensure adequate
     absent                               coverage for SAVE
                                          verifications.
                                          Incorporated the SAVE
     DC DOES work with the Department
                                          application in the initial
     of Human Services to fully automate
19                                        claims processing                 Implemented
     SAVE verifications and documentation
                                          cycle, which is
     of these verifications.
                                          automated.


                                                 DC DOES Progress on UI Recommendations
                                         7                   Report No. 03-14-003-03-315
                                          U.S. Department of Labor – Office of Inspector General




                                                       DC DOES               OIG
No.             Recommendation                    Corrective Action       Conclusion
                                                Finalized and
      Ensure that SOPs are finalized and
                                                implemented the SOPs
      implemented expeditiously for
20                                              and distributed them to Implemented
      adjudications and all other
                                                OUC staff in 2012.
      unemployment claims processes.
                                                Developed an internal
                                                check with the workers’
                                                compensation unit to
                                                conduct an
      Implement verifications of UI benefits
                                                investigation whenever
21    with public assistance and workers’                               Implemented
                                                a claimant receives
      compensation benefits.
                                                both unemployment
                                                and workers’
                                                compensation.




                                                   DC DOES Progress on UI Recommendations
                                           8                   Report No. 03-14-003-03-315
                                        U.S. Department of Labor – Office of Inspector General




                                                    DC DOES                      OIG
No.            Recommendation                   Corrective Action             Conclusion
                                              Made continuous
                                              improvements in the
                                              OUC processes.

                                              Changed the structure
                                              of Benefits unit in
                                              January 2013 to
                                              include a claims
                                              validation unit
                                              responsible for wage,
                                              alien, SAVE, SSA,
                                              NDNH, and SIDES
                                              validations prior to
                                              issuance of any
                                              benefits.

                                              Stabilized current
                                              systems while
      Implement a quality assurance
                                              exploring methods to
      mechanism to ensure that they                                         Not
                                              modernize tax and
22    conduct and record all required                                       Implemented.
                                              benefits processes.
      verifications prior to issuing                                        See result D
      unemployment benefits.
                                              Made technical
                                              enhancements to the
                                              UI computer systems
                                              such as SSN and
                                              NDNH verifications.

                                              Increased the reliability
                                              of the current computer
                                              systems by eliminating
                                              some manual
                                              processes for claims
                                              examiners, where
                                              feasible, such as
                                              automating the
                                              issuances of letters
                                              and scanning all
                                              incoming faxes to
                                              email.




                                                 DC DOES Progress on UI Recommendations
                                         9                   Report No. 03-14-003-03-315
                                         U.S. Department of Labor – Office of Inspector General




                                                       DC DOES               OIG
No.             Recommendation                    Corrective Action       Conclusion
                                                DOES has refined
                                                usage of SIDES,
                                                NDNH, and claimant
      Assess current verification processes     reported or collected
      for unemployment claims to identify       data in conjunction
23    and implement ways to further use         with new business       Implemented
      automation to conduct and record          analytics procedures to
      verifications.                            increase the timeliness
                                                and validity of
                                                processed claims.


Computer Programming Safeguards for Accurate Issuance of Unemployment
Benefits Were Inappropriately Turned Off due to Inadequate Internal Controls,
Management Alert Report, DC OIG Report No. MAR11-1-001, July 2011

      Expeditiously ensure the completion
      and issuance of a clear and detailed
      written policy for requesting and
      implementing programming
                                                Implemented a formal
      modifications to its MIS, and formalize
                                                change management            Not
      a mechanism by which such a policy
24                                              policy and                   Implemented.
      will be periodically reviewed and
                                                accompanying                 See Result A
      updated. The final policy should be
                                                procedures.
      reviewed by the DOES General
      Counsel and Director and copy
      forwarded to the Inspector General.

       In collaboration with the MIS vendor,
      modify the existing DOES System
      Change Approval form to require the
      review and approval by the Director
                                                Modified the policy to
      and General Counsel of DOES, as                                        Not
                                                align with best
25    well as the inclusion of all relevant                                  Implemented.
                                                practices and
      information, such as the reason for a                                  See result A
                                                practicability.
      computer system change, the effect of
      not implementing the change, and a
      risk assessment.




                                                  DC DOES Progress on UI Recommendations
                                          10                  Report No. 03-14-003-03-315
                                        U.S. Department of Labor – Office of Inspector General




                                                    DC DOES                      OIG
No.             Recommendation                   Corrective Action            Conclusion
      Determine the number of claims for
      which issues were not detected when
      indicators were disabled from,          Queried the identified
      February 2009 through July 2010 to      population to
      ensure that only eligible individuals   determine the
      received unemployment benefits.         legitimacy of imposing        Not
26                                            additional sanctions.         Implemented.
      Take necessary actions to recoup                                      See result A
      unemployment benefits that were not     Issued determinations
      issued in accordance with status and    to all applicable
      regulations while these indicators      claimants.
      were disabled.

      Conduct a comprehensive audit of
      OUC's computer systems to ensure
                                              Procured a contract
      that there are no existing
                                              with NASWA to review
      programming mechanisms or internal
27                                            the computer systems          Implemented
      control weaknesses that could allow
                                              and internal processes
      unemployment benefits to be issued in
                                              within OUC.
      violation of current laws and
      regulations.


National Association of State Workforce Agencies’ (NASWA): DC DOES Business
Process Review and UI IT Modernization, dated September 10, 2012

                                              Created a quality
                                              assurance unit in 2013
      To detect and prevent internal fraud
                                              that is responsible for
      and integrity issues, DC DOES must
                                              routine monitoring of
      establish a working unit that is
                                              UI activities and
      responsible for routine monitoring of
                                              special investigations.
      Ul activities and conducting special
                                              The Quality Assurance
28    investigations and audits in                                          Implemented
                                              supervisor reports to
      accordance with nationally recognized
                                              DC DOES UI Chief of
      Internal Audit standards and
                                              Benefits, who in turn
      procedures. It should be independent
                                              reports to the
      of all Agency programs and report to
                                              Associate Director of
      the Director.
                                              DC DOES UI program.




                                                 DC DOES Progress on UI Recommendations
                                         11                  Report No. 03-14-003-03-315
                                          U.S. Department of Labor – Office of Inspector General




                                                         DC DOES                   OIG
No.             Recommendation                      Corrective Action           Conclusion
                                                 In 2011, identified
                                                 several single points of
                                                 failure in OUC.
      Identify areas where only one
                                                 Continued efforts to
      individual is responsible and proficient
                                                 ensure cross-
29    in performing the particular duty and                                   Implemented
                                                 functioning tasks and
      establish a trained back up for those
                                                 proficiencies to avoid
      areas.
                                                 these single points of
                                                 failure within OUC
                                                 processes.

                                                 In 2012, instituted
                                                 monthly training for all
                                                 OUC staff to ensure
                                                 that DOL performance
      Ensure that the individuals who
                                                 standards were
      manage the programs and conduct
                                                 communicated to staff.
      the reviews are competent in the
      subject operations and they must be
                                                 Implemented a
      objective. At the point of discovery,
30                                               comprehensive MIS for Implemented
      the review units need to communicate
                                                 managers to document
      all potentially systemic issues up the
                                                 systematic issues that
      chain of command rather than only as
                                                 would affect the
      a component of periodic reporting to
                                                 accurate and timely
      DOL.
                                                 processing of claims
                                                 and employer tax
                                                 reports.

                                                 Units regularly review
      DC DOES’ working units each                correspondences and
      carefully examine all standardized         frequently use
      correspondence for opportunities in        alternative methods of
31                                                                            Implemented
      which written messaging might be           communication such
      consolidated or delivered through          email, robocall, and
      another medium                             web messaging.




                                                   DC DOES Progress on UI Recommendations
                                            12                 Report No. 03-14-003-03-315
                                         U.S. Department of Labor – Office of Inspector General




                                                     DC DOES                      OIG
No.            Recommendation                   Corrective Action              Conclusion
                                              Published the
                                              Employer Handbook
                                              May 13, 2013. The
    When a new employer is notified by
                                              status unit revised its
    the Status Unit of its new account
                                              correspondence to
    number and rate, it should receive an
32                                            new employers to               Implemented
    Employer Handbook or be directed to
                                              include a link to the
    the location of an online printable style
                                              Employer Handbook in
    version of the same.
                                              the new employer
                                              correspondence.

     Status Unit staff and Field Unit staff     During FY 2012, DOL
     should be retrained regarding liability    provided training to
     determination guidelines and statutory     Accounting, Status and
     requirements, be required to utilize the   Field Audit Staff.
33   Status Determination Checklist and         Implemented the use    Implemented
     strictly adhere to the applicable law      of the Status
     and policy.                                Determination
                                                Checklist.

     As DC DOES is informed of potentially
     liable employers by either the 940 or      Implemented a
     quarterly report of newly assigned         process to follow up on
     Federal Employer Identification            IRS leads of newly
34                                                                           Implemented
     Numbers (FEIN), it should promptly         assigned FEINs to
     assign the “leads" to a Field Examiner     ensure DC liability is
     for direct employer contacts and           investigated.
     investigation.
     Utilize the installed State
     Unemployment Tax Act (SUTA)                On September 30,
     Dumping software. Although the             2012, installed and
     version currently installed is the most    implemented the use
35                                                                           Implemented
     recent to be released to the states, for   of the SUTA Dumping
     enhanced security and supportability       Software v3.0 on
     DC DOES should consider upgrading          September 30, 2012
     v3.0 upon its release.
     Explore the usefulness of the SUTA         Established the use of
     Dumping software to detect                 SUTA dumping
     predecessor/successor relationships        software to detect
36                                                                     Implemented
     that were not detected at the time the     predecessor/successor
     successor account was established.         relationships.



                                                  DC DOES Progress on UI Recommendations
                                          13                  Report No. 03-14-003-03-315
                                         U.S. Department of Labor – Office of Inspector General




                                                     DC DOES                      OIG
No.              Recommendation                   Corrective Action            Conclusion
      Hire additional claimant
      representatives in the Call Center and
                                                In 2013, ceased
      cease diversion of claims examiners
                                                diversion of claims
      as backup so that diverting staff from
                                                examiners as back up
37    one key function to another does not:                                  Implemented
                                                and increased Call
      diminish the quality in both areas,
                                                Center Staff by seven
      foster backlogs in non-monetary; and
                                                employees.
      impede achievement of acceptable
      levels of performance.
      Require Claims Takers to review 18
      month employment histories for each
      claimant, and recognize and account       Complied with current
38                                                                           Implemented
      for missing employers,                    DC Code.
      multistate/federal/military employment.
      Include claimant’s name on the benefit Included claimant
      section wage file.                     name and the full wage
39                                                                  Implemented
                                             amounts in wage files.

      Assign more than one individual to the    Provided Benefits staff
      function of scanning and attaching        the ability to scan and
40    documents to the appropriate records                                   Implemented
                                                retrieve documents
      for adjudication.                         from their workstation.
                                                In FY 2012, conducted
                                                a 5-day adjudication
                                                claims examiner
                                                training for new staff,
                                                including UI claims and
      Develop a standardized training           hands-on training of
      curriculum for the Benefits Claim         OUC systems.
      Intake process that includes a
      foundational knowledge about the UI       Implemented a
      program, hands-on training with DC        requirement that all
41                                                                           Implemented
      DOES systems, performance                 adjudicators take time
      expectations, time management skills,     management courses.
      reporting of time to the correct
      function area, and security/integrity     Secured an expert and
      responsibilities.                         other resources to train
                                                DC DOES and Office
                                                of the Chief Financial
                                                Officer (OCFO) staff to
                                                ensure proper
                                                reporting of time.

                                                  DC DOES Progress on UI Recommendations
                                          14                  Report No. 03-14-003-03-315
                                          U.S. Department of Labor – Office of Inspector General




                                                      DC DOES                      OIG
No.             Recommendation                     Corrective Action            Conclusion

      Update Combined Wage Claim                 Updated the CWC
42    (CWC) on-line handbook and CWC             online handbook and          Implemented
      option letter.                             options letter.

                                                 Implemented the
      After the call center claims taker views
                                                 requirement that a
      the WIC2 screen, a hard copy screen
                                                 screen shot of the
      shot should be created and saved with
                                                 WIC2 screen is saved
43    the claim record. These hard copies                                 Implemented
                                                 with the claim record to
      should be collected by the manager
                                                 help with the backdate
      and delivered to the IPC on a daily
                                                 process.
      basis.
                                                 In 2012, hired
      Consider recruiting and training           additional staff to
44    additional claims examiners to be          support claims               Implemented
      dedicated to only claims adjudication.     adjudication.

                                                 Reviewed the non-
      Conduct a historical review of non-
                                                 monetary workload
      monetary workload to determine the
                                                 and hired/assigned six
      minimum number of claims examiners
45                                               additional staff to          Implemented
      required to accomplish that work in
                                                 support the Benefits
      compliance with federally mandated
                                                 operations.
      timeliness and quality standards.
                                                 Supervisors monitor
                                                 pending cases and
                                                 workloads reports
      Supervisors can monitor the status of
                                                 daily.
      cases through the non-monetary
      determination system and the
                                                 Made case aging and
      examiner’s entries throughout the
46                                               workload reports             Implemented
      course of the fact-finding process. All
                                                 available to employees
      examiners must be required to keep
                                                 and routinely sent
      current the on-line status and actions
                                                 them to staff as a
      relevant to cases.
                                                 means of monitoring
                                                 performance.




                                                   DC DOES Progress on UI Recommendations
                                           15                  Report No. 03-14-003-03-315
                                         U.S. Department of Labor – Office of Inspector General




                                                        DC DOES                   OIG
No.             Recommendation                     Corrective Action           Conclusion
                                                Conducted a five-day
                                                full-adjudication claims
                                                examiner training in
                                                2012 for new staff,
                                                including UI claims and
      Develop a standardized training
                                                hands-on training of
      curriculum for the Benefits
                                                OUC systems.
      Adjudication process that includes a
      foundational knowledge about the UI
                                                Also, all adjudicators
      program, hands-on-training with DC
                                                are now required to
47    DOES systems, performance                                              Implemented
                                                take time management
      expectations, time management skills,
                                                courses.
      reporting of time to the correct
      functional area, and security/integrity
                                                Finally, secured an
      responsibilities.
                                                expert and other
                                                resources to train
                                                DOES and OCFO staff
                                                to ensure proper
                                                reporting of time.

                                                Implemented a
                                                requirement that a
                                                notice is sent to
                                                claimants when a
                                                possible conflict is
      Immediately generate a 7-day notice       discovered during the
48    to the claimant when the new hire         new hire cross match.        Implemented
      cross match is performed.                 The letter is sent 7
                                                days after the agency
                                                gains knowledge that
                                                the claimant has
                                                returned to work.

                                                Implemented a
      Determine standard repayment              standard 24-month
49    schedule based on the amount of the       repayment plan for            Implemented
      overpayment.                              overpayment recovery.

                                                OIT developed an
                                                application to search        Not
      Utilize a stop code on SSNs of all DC
50                                              for employee SSNs as         Implemented.
      DOES employees.
                                                part of its security         See Result B
                                                protocol.

                                                  DC DOES Progress on UI Recommendations
                                          16                  Report No. 03-14-003-03-315
                                          U.S. Department of Labor – Office of Inspector General




                                                       DC DOES                     OIG
No.             Recommendation                     Corrective Action            Conclusion
                                                This activity took place
                                                at time of review. The
                                                Benefit Payment
                                                                              Not
      Monitor all repayment agreements for      Control Unit monitored
51                                                                            Implemented.
      compliance.                               pay agreements on a
                                                                              See Result C
                                                quarterly basis for
                                                compliance.

      To assure continued delivery of UC
      services during disasters, develop
      contingency plans that address DC
                                                In 2012, issued a
      DOES OIT and UC program
                                                Continuity of
      requirements. During and after
                                                Operations Plan
52    development, documentation and                                          Implemented
                                                (COOP). Will continue
      testing of these plans, coordinate with
                                                to review and update
      Office of the Chief Technology Officer
                                                the COOP.
      (OCTO) to assure complete coverage
      of contingency response
      requirements.
      To assure that every account is           In accordance with DC Implemented
      properly assessed during the semi-        DOES Access control
      annual review, each account needs to      Policy, the Information
      be reviewed by the account holders'       Security Officer leads
      supervisor or other management staff      efforts by coordinating
      who can determine whether the             between Office of
      account is still needed and that          Information
      appropriate privileges are associated     Technology, HR, OUC
      with each active account.                 and OCTO, a semi-
                                                annual system access
53                                              review exercise.
                                                Review looks at all
                                                current users to
                                                identify privilege level
                                                and if level needs to be
                                                modified.




                                                   DC DOES Progress on UI Recommendations
                                           17                  Report No. 03-14-003-03-315
                                           U.S. Department of Labor – Office of Inspector General




                                                        DC DOES                     OIG
No.             Recommendation                      Corrective Action            Conclusion
      To assure that awareness training is       Developed a formal
      completed by all staff at the time of      training program for all
      employment and annually thereafter,        employees. All training
54    adopts a formal documented training        is documented and             Implemented
      program that includes tracking of the      maintained by the
      completion (initial and annual) of all     DOES HR Office.
      personnel.
      Establish an Internal Auditor position
      and or office with a degreed, certified    In the process of hiring      Implemented.
55
      individual in the lead who reports to      a lead internal auditor.      See Result F
      the Director.
                                                 Hired two individuals to
                                                 serve as leads in the
      Develop lead workers for the Call          Call Center. These
      Center with the knowledge and              individuals have the
56                                                                        Implemented
      experience to respond to questions         knowledge and
      and problems as they occur.                experience to respond
                                                 to questions.

                                                 Increased Call Center
      Call Center volume varies seasonally       Staff by seven
      and during certain times of the week.      employees. These
      Develop a method of responding to          employees were hired
57                                                                             Implemented
      workload fluctuations rather than          to cease the diversion
      diversion of staff from one key task to    of staff from one key
      another.                                   task to another.

      Train all adjudicators to adjudicate all
      issues so that case scheduling in not
                                                 OUC conducts monthly
      complicated, claims examiner
                                                 training for staff to
58    productivity is not limited, supervisor                            Implemented
                                                 ensure all adjudicators
      flexibility is not diminished, and
                                                 can work on all claims.
      achievement of acceptable levels of
      performance is not impeded.




                                                    DC DOES Progress on UI Recommendations
                                            18                  Report No. 03-14-003-03-315
                                        U.S. Department of Labor – Office of Inspector General




                                                  DC DOES               OIG
No.            Recommendation                Corrective Action       Conclusion
                                           Employees in the
    There are four different levels of     same Career Service
    claims examiners and productivity is   level are expected to
    dictated by pay grade. Lower grade     perform at the same
    examiners adjudicate fewer cases       level of proficiency.
    than those with higher grades. This    Worked with Human
    underutilizes adjudicators who are     Resource to effectively
    capable of greater productivity.       manage staff
    Monitor claims examiner performance performance. DC
    and ensure their automatic promotions DOES holds all
59  are consistent with their ability.     adjudicators            Implemented
    Demote claims examiners not            accountable for their
    adjudicating at levels consistent with work. Employees are
    their pay grade. Work with HR to       promoted and demoted
    create three adjudication levels: an   based on their work.
    entry level probationary, a standard   All adjudicators past
    adjudicator, and a supervisor level.   the probationary level
    Ensure that all Adjudicators past the  are expected to
    probationary level perform at the      perform at the same
    same level.                            level.

                                              The IVR has always
                                              allowed claimants to
                                              modify their responses
                                              prior to disconnecting
     When the Interactive Voice Response      from the IVR system.
     (IVR) detects a non-preferred
     response during the certification        Claimants are given
60   process, offer the claimant the          two opportunities to    Implemented
     opportunity to immediately correct the   modify their responses.
     error via the IVR if he/she responded    On the third attempt to
     incorrectly.                             modify a response the
                                              claimant is routed to a
                                              Call Center
                                              Representative.




                                                 DC DOES Progress on UI Recommendations
                                         19                  Report No. 03-14-003-03-315
                                        U.S. Department of Labor – Office of Inspector General




                                                      DC DOES               OIG
No.            Recommendation                     Corrective Action      Conclusion
                                              In FY 2012, launched a
                                              probe to identify and
                                              recover funds from DC
                                              government
                                              employees who
                                              illegally collected UI
      Develop a comprehensive fraud                                    Not
                                              benefits. Also designed
61    prevention program including claimant                            Implemented.
                                              and implemented the
      and employer outreach.                                           See Result B
                                              “Deter, Detect, Collect”
                                              anti-fraud marketing
                                              campaign to educate
                                              the public about UI
                                              fraud.

                                              Working to procure a
      Performa match against vital records    vendor to receive vital
                                                                            Implemented.
62    to detect claims filed against          records and prison
                                                                            See Result E
      deceased SSNs.                          information.

                                              Adhered to ETA’s
                                              Program Letter 02-12.

                                              Section 4 of the
      Implement the $100 fraud penalty for    Program Letter states
63    all claimants with a new fraud          a minimum 15 percent          Implemented
      overpayment.                            penalty will be
                                              assessed on UI
                                              improper payments
                                              due to fraud.

                                              Sent a notice to
                                              claimants when a
                                              possible conflict is
      New Hire data should be used to
                                              discovered during the
      detect claimants who have returned to
64                                            NDNH cross-match              Implemented
      work and now have some ability to
                                              audit. Claimants are
      repay.
                                              given seven calendar
                                              days to respond.




                                                 DC DOES Progress on UI Recommendations
                                         20                  Report No. 03-14-003-03-315
                                          U.S. Department of Labor – Office of Inspector General




                                                       DC DOES                     OIG
No.             Recommendation                     Corrective Action            Conclusion
                                                Created and approved
                                                a collection of security
                                                driven policies to
      A System Security Plan (SSP)
                                                govern the integrity of
      provides a central point of reference
                                                DC DOES IT systems.
      for documenting and managing an
      organization's security controls.
65                                              Compiled these                Implemented
      Develop a SSP for DC DOES IT
                                                policies into a plan that
      systems to enhance the management
                                                provides a center point
      of the DC DOES IT systems security
                                                of reference for
      program that supports the UI program.
                                                managing the security
                                                controls.

      To assure that all recommended
      policies and procedures associated        In 2013 updated policy
      with a National Institute of Standards    600.20.1 which is for
      and Technology (NIST) compliant           the acceptable and
66    security program are in place,            secure use of all IT          Implemented
      enhance existing documentation to         used to process or
      cover all security areas and provide      store information for
      full coverage of all NIST Security        business needs.
      Families.
                                                Two external audits
                                                are conducted each
                                                year to test the
                                                integrity and accuracy
                                                of the benefits and tax
      To assure that consistent and             operations. The
      adequate audit procedures are in          Integrity Task force
      place, review documented practices.       and the new quality
67    Also, develop audit policies and          assurance unit also     Implemented
      procedures for DOES OIT and for the       performed standard
      unemployment compensation                 DOL audits on the Tax
      applications.                             and Benefits systems
                                                to ensure the programs
                                                meet the quality and
                                                performance standards
                                                established by DOL.




                                                   DC DOES Progress on UI Recommendations
                                           21                  Report No. 03-14-003-03-315
                                         U.S. Department of Labor – Office of Inspector General




                                                         DC DOES                  OIG
No.            Recommendation                        Corrective Action         Conclusion
                                                  Conducted regular
                                                  audits internally by
      Risk assessments have the potential         program, including
      to identify potential risks associated      internal user
      with organizational vulnerabilities         acceptance testing.
      before they are exploited, allowing         Developed a risk
68                                                                           Implemented
      remediation measures to be adopted          assessment program
      proactively. Adopt a risk assessment        to manage and
      program for DC DOES OIT to provide          mitigate perceived or
      risk management capabilities.               detected system
                                                  defects.

                                                  Regularly worked with
                                                  the OCTO on
                                                  establishing and
                                                  refining Common
                                                  Controls. These
      OCTO currently provides Enterprise          controls included
      level security services that support        physical security
69    multiple DC agencies. Work with             associated with the     Implemented
      OCTO to establish such services as          Data center, Firewalls
      Common Controls.                            protecting the networks
                                                  and patching activities
                                                  associated with the
                                                  servers maintained in
                                                  the data center.




                                                    DC DOES Progress on UI Recommendations
                                             22                 Report No. 03-14-003-03-315
              U.S. Department of Labor – Office of Inspector General




Appendices





                       DC DOES Progress on UI Recommendations
               23                  Report No. 03-14-003-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                      DC DOES Progress on UI Recommendations
              24                  Report No. 03-14-003-03-315
                                          U.S. Department of Labor – Office of Inspector General



                                                                                 Appendix A
Objective, Scope, Methodology, and Criteria

Objective

Our audit objective was to answer the following question:

Did DC DOES implement corrective actions to address the findings and
recommendations identified in the DC OIG evaluations and NASWA analysis regarding
problems found in its UI claims process?

Scope

The audit covered corrective actions that DC DOES took, or planned to take, to address
69 recommendations made in separate reports issued by the DC OIG and NASWA
between February 2011, and September 2012. Although these reports contained a total
of 136 recommendations, our audit focused on the 69 recommendations addressing
significant deficiencies related to the UI claims processing, detecting improper
payments, and recovering UI overpayments.

The four reports were:

   1. February 2011, DC OIG issued Report of Special Evaluation of the Department
      of Employment Services’ Office of Unemployment Compensation Benefits
      Division (OIG NO. 11-I-0038CF)

   2. June 8, 2011, DC OIG issued Management Alert Report (MAR), Computer
      Programming Safeguards for Accurate Issuance of Unemployment Benefits
      Were Inappropriately Turned Off Due to Inadequate Internal Controls (MAR 11-1-
      001)

   3. July 13, 2012, DC OIG issued Report Special Evaluation of the Department of
      Employment Services’ Office of Unemployment Compensation-Part II (OIG No.
      12-I-0046CF)

   4. September 10, 2012, NASWA issued report District of Columbia DOES,

      Business Process Review and UI IT Modernization



We conducted our audit work at DC DOES’ main office and ETA’s National Office, both
located in Washington, DC; and the ETA regional office in Philadelphia, PA.

We considered the internal control elements of the control environment, risk
assessment, control activities, information and communication, and monitoring during
our planning and substantive audit phases.


                                                   DC DOES Progress on UI Recommendations
                                           25                  Report No. 03-14-003-03-315
                                           U.S. Department of Labor – Office of Inspector General



We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our conclusions based on our audit objective.

Methodology

We tested corrective actions DC DOES took at the time of our audit to determine their
effectiveness in addressing the DC OIG and NASWA recommendations. To assess DC
DOES’ internal controls over managing the DC OIG and NASWA reports’
recommendations, we interviewed key DC DOES staff and reviewed DC DOES’ policies
and procedures. We evaluated the internal controls that DC DOES had in place
regarding implementing corrective actions to address recommendations as of January
2014. We reviewed all 136 recommendations and identified those recommendations
that addressed significant deficiencies related to our audit objective. Table 3 lists the DC
OIG and NASWA reports, the number of recommendation in each report and the
number of recommendations we tested for implementation.

Table 3 – DC OIG and NASWA Reports, Recommendation, and Recommendations
Tested for Implementation
                                                                   Recommendations
                                                                      Tested for
                Report                   Recommendations            Implementation
DC OIG – Report of Special
Evaluation of the Department of
Employment Services’ Office of
Unemployment Compensation                          5                          5
Benefits Division.
February 2011, Report No. 11-I-
0038CF
DC OIG – Management Alert Report,
Computer Programming Safeguards
for Accurate Issuance of
Unemployment Benefits Were
                                                   4                          4
Inappropriately Turned Off Due to
Inadequate Internal Controls.
June 2011, Report No. MAR 11-1-
001
DC OIG – Special Evaluation of the
Department of Employment Services’
Office of Unemployment                             19                        18
Compensation-Part II.
July 2011, Report No. 12-I-0046CF



                                                    DC DOES Progress on UI Recommendations
                                            26                  Report No. 03-14-003-03-315
                                          U.S. Department of Labor – Office of Inspector General



                                                                  Recommendations
                                                                     Tested for
              Report                    Recommendations            Implementation
NASWA – DC DOES, Business
Process Review and UI IT
                                                 108                        42
Modernization
September 2012
Totals                                           136                        69

In planning and performing our audit, we considered DC DOES’ internal controls that
were relevant to our audit objective by obtaining an understanding of these controls,
and assessing control risk for the purposes of achieving our objective. The objective of
our audit was not to provide assurance on the internal controls. Therefore, we did not
express an opinion on the internal controls as a whole. Our consideration of DC DOES’
internal controls relevant to our audit objective would not necessarily disclose all
matters that might be reportable conditions. Because of the inherent limitations on
internal controls, noncompliance may nevertheless occur and not be detected.

Criteria

      Employment and Training Handbook No. 382, Handbook for Measuring UI Lower
      Authority Appeals Quality, March 2011

      Internal Control Integrated Framework, May 1994

      Office of Management and Budget Circular A-123, Management’ Responsibility
      for Internal Control, December 2004

      DC Codes 51-109, Eligibility for Benefits and 51-110, Disqualification for Benefits

      DC DOES Policies and Procedures




                                                   DC DOES Progress on UI Recommendations
                                           27                  Report No. 03-14-003-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                      DC DOES Progress on UI Recommendations
              28                  Report No. 03-14-003-03-315
                               U.S. Department of Labor – Office of Inspector General



                                                                      Appendix B
Acronyms

COOP       Continuity of Operations Plan
CWC        Combined Wage Claim
DC         District of Columbia
DC DOES    District of Columbia Department of Employment Services
DC OIG     District of Columbia Office of Inspector General
DOCS       District On-Line Compensation System
DOL        U.S. Department of Labor
ETA        Employment and Training Administration
FEIN       Federal Employer Identification Number
FY         Fiscal Year
HHS        U.S. Department of Health and Human Services
HR         Human Resources
IT         Information Technology
IVR        Interactive Voice Response
MAR        Management Alert Report
MIS        Management Information System
NASWA      National Association of State Workforce Agencies
NDNH       New Directory of New Hires
NIST       National Institute of Standards and Technology
OCFO       Office of the Chief Financial Officer
OCTO       Office of the Chief Technology Officer
OIG        Office of Inspector General
OIT        Office of Information Technology
OUC        Office of Unemployment Compensation
SAVE       Systematic Alien Verification for Entitlement
SIDES      State Information Data Exchange System
SOP        Standard Operating Procedure
SSN        Social Security Number
SSP        System Security Plan
SUTA       State Unemployment Tax Act
TOP        Treasury Offset Program
UI         Unemployment Insurance




                                        DC DOES Progress on UI Recommendations
                                29                  Report No. 03-14-003-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                      DC DOES Progress on UI Recommendations
              30                  Report No. 03-14-003-03-315
                                   U.S. Department of Labor – Office of Inspector General



                                                                          Appendix C
DC DOES Response to Draft Report




                                            DC DOES Progress on UI Recommendations
                                    31                  Report No. 03-14-003-03-315
U.S. Department of Labor – Office of Inspector General




         DC DOES Progress on UI Recommendations
 32                  Report No. 03-14-003-03-315
U.S. Department of Labor – Office of Inspector General




         DC DOES Progress on UI Recommendations
 33                  Report No. 03-14-003-03-315
U.S. Department of Labor – Office of Inspector General




         DC DOES Progress on UI Recommendations
 34                  Report No. 03-14-003-03-315
U.S. Department of Labor – Office of Inspector General




         DC DOES Progress on UI Recommendations
 35                  Report No. 03-14-003-03-315
U.S. Department of Labor – Office of Inspector General




         DC DOES Progress on UI Recommendations
 36                  Report No. 03-14-003-03-315
                                            U.S. Department of Labor – Office of Inspector General



                                                                                   Appendix D
Acknowledgements

Key contributors to this report were Michael Hill (Audit Director), Michael Elliott (Audit
Manager), Miguel Hughes, and Goleda Sutton-Watson.




                                                     DC DOES Progress on UI Recommendations
                                             37                  Report No. 03-14-003-03-315
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
